PHIL WEISER
Attorney General

RALPH L. CARR
COLORADO JUDICIAL CENTER
1300 Broadway, 10th Floor
Denver, Colorado 80203
Phone (720) 508-6000

NATALIE HANLON LEH
Chief Deputy Attorney General
ERIC R. OLSON
Solicitor General
ERIC T. MEYER
Chief Operating Officer
.

STATE OF COLORADO
DEPARTMENT OF LAW

Office of the Attorney General

October 07, 2021

Via electronic filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
RE:

303 Creative LLC, et al. v. Elenis, et al., No. 21-476

Dear Mr. Harris:
I am counsel of record to all respondents in the above-captioned case. The petition
for writ of certiorari in this case was filed on September 24, 2021, and was docketed
on September 28, 2021. The response to the petition is currently due on Thursday,
October 28, 2021.
Three potential parties have given notice of their intent to file amicus briefs in
support of petitioners. In addition, I have significant commitments throughout
October and November. So that the response in opposition can address any issues
raised by the amicus briefs while giving our office adequate time to prepare the
response (and ensuring that the briefing deadlines do not disrupt Thanksgiving and
December holidays for any party), I respectfully request a 43-day extension through
and including December 10 to file a response to the petition.
Respondents have not previously sought any extensions in this case. Petitioners do
not oppose the requested extension.
Thank you for your consideration.
Sincerely,
/s/ Eric R. Olson
Solicitor General of Colorado
cc:

Kristen Waggoner (counsel for petitioners)

